No. 19-784
IN THE

$)ttpre1ne <1:ourt of tbe Wniteb ~tate~
UNIVERSITY OF PENNSYLVANIA, ET AL.,

Petitioners,

v.
JENNIFER SWEDA, ET AL.,

Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.l(h), I certify this 17th day of January 2020, that the Brief for the Chamber
of Commerce of the United States and the American Benefits Council as Amici

Curiae Supporting Petitioners contains

S,659

words, excluding the parts of the

document that are exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.

a tos

dwin rocter LLP
1900 N Street, NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
Executed on January 17, 2020

Counsel for Amicus Curiae

